                         OFFICE OF

          THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



       PERFORMANCE MEASURE

              REVIEW:

    RELIABILITY OF THE DATA USED

       TO MEASURE THE SOCIAL

     SECURITY ADMINISTRATION’S

          DEBT COLLECTION


     July 2000                                A-15-99-51006



AUDIT REPORT





This document is a draft report of the Office of the Inspector General
 and is subject to revision; therefore, recipients of this draft should
 not disclose its contents for purposes other than for official review
 and comment under any circumstances. This draft and all copies
  thereof remain the property of, and must be returned on demand
                to, the Office of the Inspector General.
                             Office of the Inspector General
July 28, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General



Performance Measure Review: Reliability of the Data Used to Measure the Social

Security Administration’s Debt Collection (A-15-99-51006)



The Government Performance and Results Act (GPRA) of 1993,

Pub. L. No. 103-62,107 Stat. 285, requires the Social Security Administration (SSA) to

develop performance indicators that assess the relevant service levels and outcomes of

each program activity. GPRA also calls for a description of the means used to verify

and validate the measured values used to report on program performance. SSA has

stated that the Office of the Inspector General (OIG) plays a vital role in evaluating the

data used to measure performance. Accordingly, the objective of this audit was to

assess the reliability of SSA’s performance data for the following GPRA performance

indicators published in the Agency’s Fiscal Year 1998 Accountability Report:


Annual increase in debt collected (indicator 44).
Overpayment dollars collected (indicator 45).

RESULTS OF REVIEW
SSA has a system to measure its performance related to the Annual Increase in Debt
Collected and Overpayment Dollars Collected. SSA, however, cannot readily obtain
data on Overpayment Dollars Collected because significant weaknesses and data
inaccuracies exist in its debt management system (DMS). (See background section of
this report.) As a result, SSA extracts supporting data from its DMS and adjusts the
resulting figures based on statistical sampling procedures performed by the Office of
Quality Assurance (OQA). We reviewed and performed limited testing on OQA’s
statistical methodology for posting adjustments to the DMS generated data and
determined the methodology and resulting adjustments to be reasonable. Our
recalculation of the Annual Increase in Debt Collected measure also proved to be
reasonable.
CONCLUSION
Overall, we found the Overpayment Dollars Collected performance measure to be
statistically reliable. We also found the Annual Increase in Debt Collected performance
measure to be calculated properly. Nonetheless, it is our opinion that SSA’s continued
reliance on significant statistical adjustments to the DMS generated data to effect the
performance measures is a management control weakness that increases the risk of a
material misstatement to the performance measures. Therefore, we encourage
management’s heightened awareness and attention to fixing the reported weaknesses
and accounting inaccuracies existing in the DMS.

We are aware of SSA’s decision to reexamine the measurement objective for debt
collection and its supporting performance measures, including plans to replace the
current measures with non-numeric goals. Although details of proposed changes to
performance measures have not been communicated by the Agency, OIG encourages
SSA to develop new objectives and performance measures for debt collection that focus
on total program performance.

AGENCY COMMENTS
In response to our draft report, SSA noted the planned projects to correct remaining
weaknesses and stated that the agency will consider modification of performance
measures to focus on total program performance (See Appendix C for SSA’s comments
to our draft report).

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We concur with the Agency’s planned projects to correct remaining weaknesses and
improve reporting on total program performance.




                                                James G. Huse, Jr.




                                           2

                           APPENDICES

APPENDIX A – Background


APPENDIX B - Scope and Methodology


APPENDIX C – Agency Comments


APPENDIX D – OIG Contacts and Staff Acknowledgments


APPENDIX E – SSA Organizational Chart

                                                                            APPENDIX A



                             BACKGROUND

The Government Performance and Results Act (GPRA) of 1993,

Pub. L. No.103-62, 107 Stat. 285, was passed in August 1993. GPRA requires all

Federal agencies to create performance indicators and goals. Agencies are to monitor

and report on their success in reaching these goals. In addition, agencies need reliable

and accurate data for GPRA performance measure reporting.


The Social Security Administration (SSA) developed 67 GPRA related performance

indicators. Two of the indicators measure debt collection performance. This review

determined whether the performance measurement data was valid. SSA’s performance

measures for Debt Collection as published in the Agency’s Accountability Report for

Fiscal Year (FY) 1998 are (1) Annual increase in debt collected and (2) Overpayment

dollars collected. The first performance measure is a percentage change in collection

amounts between the current FY and the prior FY. The second performance measure

is a summary total of SSA collection of overpayments from various recipients and

beneficiaries.


Debt owed to SSA results primarily from overpayments to recipients and beneficiaries.

SSA has two major information systems of tracking debt collection. The Recovery of

Overpayment Accounting and Reporting System tracks title II debts. Title XVI debts are

tracked by the Overpayment Underpayment Process System. Title II represents Old

Age and Survivors Insurance and Disability Insurance. These programs are commonly

referred to as Social Security and provide a comprehensive package of protection

against loss of earnings due to retirement, disability and death. Title XVI represents the

Supplemental Security Income program. This program is a means-tested program

designed to provide or supplement the income of aged, blind or disabled individuals with

limited income and resources. There are also immaterial amounts of collections for the

Black Lung program.

To satisfy the review requirements of the Federal Managers’ Financial Integrity Act of

1982, the Paperwork Reduction Act of 1980, the Paperwork Reduction Reauthorization

Act of 1986, the Computer Security Act of 1987 and Office of Management and Budget

Circulars A-123, A-127 and A-130, SSA performs or contracts to perform periodic

reviews of its financial management systems, including those related to debt

management.


SSA received the Consolidated Review of the Debt Management System (DMS) report

in June 1998 from its independent contractor. The report listed current and on-going

material and non-material weaknesses related to the DMS, including inadequate

controls over completeness of processing and inaccurate accounting for overpayments,

underpayments and recoveries occurring within sub-systems. SSA responded to many



                                           A-1

of the weaknesses citing correction in the title XVI Debt Management Strategy Plan and
planned DMS modernization efforts to correct material nonconformance by
September 2000.




                                         A-2

                                                                         APPENDIX B



              SCOPE AND METHODOLOGY


To accomplish the objectives, we performed the following:


•	 reviewed the Office of Management and Budget Bulletin 98-08, Audit Requirements
   for Federal Financial Statements, and Public Law 103-62, the Government
   Performance Results Act;

•	 reviewed the Social Security Administration’s (SSA) Fiscal Year (FY) 1998
   Accountability Report and FY 2000 Performance Plan, specifically the debt collection
   performance measures information;

•	 reviewed audit work performed on the debt management area by the financial
   statement auditors and prior Office of Inspector General audit work;


•	 interviewed debt management personnel on the process used to report overpayment
   collection data;

•	 reviewed FY 1997 and 1998 Overpayment Worksheets, Monthly Overpayment
   Reports, Journal Entries, Overpayment Underpayment Process System and
   Recovery of Overpayment Accounting Reporting System Monthly Reports;
   Schedule 9 Report on Receivables;


•	 reviewed the Office of Quality Assurance adjustments to overpayment dollars
   collected;

•	 reconciled the various reports to determine if the reported amounts agreed and
   supported the performance measure for overpayment dollars collected; and

•   recomputed the performance measure for annual increase in debt collected.




                                         B-1

A complete review of electronic data processing general and application controls was
not completed for this audit, but a limited review of controls was performed by reviewing
the work performed by the financial statement auditors and conducting interviews with
SSA personnel. We conducted extensive data testing by obtaining and reconciling the
Overpayment Dollars Collected amounts. We conducted our audit in accordance with
generally accepted government auditing standards. The fieldwork was conducted from
March 1999 through October 1999 at SSA Headquarters in Baltimore, Maryland.




                                           B-2

                   APPENDIX C



AGENCY COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT

REPORT, “PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA

USED TO MEASURE THE SOCIAL SECURITY ADMINISTRATION’S DEBT

COLLECTION” (A-15-99-51006)



Thank you for the opportunity to review this OIG draft report.

This report confirms that the measures employed by the Social

Security Administration (SSA) for evaluating debt collection

performance have been calculated properly and are statistically

reliable.


As noted in the OIG report, actions are underway to correct the

management control weakness relating to the current reliance on

statistical adjustments to systems generated data for these

performance measures. The actions cited below should satisfy

the concerns raised in this report by eliminating the need to

perform statistical sampling procedures. We are also working to

resolve other reported weaknesses and accounting inaccuracies

relating to debt management. By September 2001 we expect to

complete several major projects to reach the 85 percent

threshold required by our resolution procedures for correcting

these weaknesses. The following projects are scheduled:


- Implementation of Post 1983 Debt Write-Off - a monthly

  operation to run from July 2000 through the end of September

  2000. This process will automatically transfer title XVI debt

  from the latest terminated record to a current pay record.

  Any debt that is not transferable will be written off.


- Implementation (September 2000) of the Modernized

  Overpayment/Underpayment Reporting System (MOURS) -

  an enhanced accounting system that will include the ability to

  correctly account for and report on overpayments and

  underpayments on title XVI payment records.


- Implementation (September 2001) of a MOURS enhancement

  (Schedule 9 Report - Report on Receivables Due from the

  Public) – an enhancement that will provide information

  concerning the aging of debts.


- Implementation (September 2001) of Title XVI Debt Management

  Front-End Screens - an online system that will provide field

  office personnel the capability to input debt management

  related events. The screens will provide a faster, more

  efficient mechanism for SSA employees to manage debt



                               C-2

  management workloads including, but not limited to, capturing

  overpayment waiver and appeal data.


The remaining accounting inaccuracies (15 percent) will be

scheduled for correction via our systems 5-year planning

process.


We will also consider the suggestion to develop new objectives

and performance measures for debt collection that focus on total

program performance as we proceed with our enhancements.


Other Matters


Page 2 of the background section of the OIG report

(Appendix A) refers to efforts to correct material conformance

by September 2000. However, there are no longer any

“nonconformances,” but rather only weaknesses. As noted above,

the weaknesses will be corrected in September 2001.





                               C-3

                                                                       APPENDIX D



               OIG CONTACTS

        AND STAFF ACKNOWLEDGMENTS

OIG Contacts

Frederick C. Nordhoff, Director, Financial Management Performance Monitoring Audit
Division, (410) 966-6676

Carl Markowitz, Audit Manager, (410) 965-9742

Acknowledgments

In addition to those named above:

      John Beacham, Senior Auditor

      Glenn E. Lee, Auditor

      Cheryl Robinson, Writer-Editor
                        APPENDIX E 



SSA ORGANIZATIONAL CHART

